Cover Pictures


(from back to front)

View of Ames Laboratory’s thin film deposition method.

Argonne scientist using the Intermediate Voltage Electron Microscope.

Microalgae, organisms from which a diesel-like fuel can be derived.

Proteus, the aircraft used by Sandia’s Atomospheric Radiation Measurement Unmanned
Aerospace Vehicle Program.

Verticle Axis Wind Turbine test bed located at Bushland, Texas.

Interior of the National Ignition Facility Chamber.
                             Department of Energy
                                  Washington, DC 2 0 5 8 5

                                     A p r i l 2 7 , 2007




The Honorable Samuel W. Bodman
Secretary
1J.S. Department of Energy
Washington, DC 20585

Dear Secretary Bodman:

I am pleased to submit the Office of Inspector General's (OIG's) Senziannual Report to
Congress. This report summarizes significant OIG activities and accomplishments during
the six month period ending March 3 1,2007.

This report reflects our continuing commitment to focus OIG efforts on the issues and
concerns most critical to you, the Administration, the Congress, and the taxpayer. In
particular, the report details OIG accomplishments in identifying the Department's most
significant management challenges.

We look forward to working with you on matters of mutual interest.

                                             Sincerely,
                                                   P         -.-




                                             Gregory H. Friedman
                                             Inspector General

Enclosure
                           SEMIANNUAL REPORT TO CONGRESS




                      Table of Contents

Inspector General’s Message . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Accomplishments Addressing Management Challenges . . . . . . . . . . 3
        Safeguards and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
        Environmental Cleanup . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
        Stockpile Stewardship . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
        Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
        Project Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
        Cyber Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
        Energy Supply . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


Significant Investigative Accomplishments . . . . . . . . . . . . . . . . . . . 15

Other Significant Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . 21
        Administrative Safeguards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
        Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
        Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
        Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
        Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
        Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
        Intelligence Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
        Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
        Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
        Statistical Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33




                                                                i
U . S . D E PA RT M E N T O F E N E R G Y                                     OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                      ii
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Inspector General’s Message

I
    am pleased to provide the Office of Inspector General’s (OIG’s) Semiannual Report to
    Congress for the six month reporting period ending March 31, 2007. During the reporting
    period, the OIG continued to assist the Department’s management in addressing its mission-
related priorities and identifying opportunities for programmatic cost savings,
enhanced program performance, and operational efficiencies. We issued
55 audit and inspection reports that identified over $60 million in
potential savings. In addition, we referred 19 investigations for
prosecution and obtained 28 criminal convictions. Our work led
to the recovery of over $3.2 million in fines, settlements, and
restitutions.
On an annual basis, the OIG identifies what it considers to be the
Department’s most significant management challenges. Our work
has consistently highlighted cyber security as a high risk Departmental
function. Consequently, we conducted numerous reviews designed to assist
the Department in addressing cyber security vulnerabilities. For example, the OIG completed a
review that revealed specific unclassified information system vulnerabilities at several National
Nuclear Security Administration (NNSA) sites. Although NNSA had implemented a number
of measures designed to reduce cyber security risks and vulnerabilities, we identified deficiencies
that exposed critical unclassified systems to an increased risk of compromise. The report
included specific recommendations to improve cyber security throughout NNSA. Since cyber
security weaknesses have been a continuing challenge for NNSA and the Department, the OIG
will continue to focus attention on and devote resources to this critical area.
In my role as the Vice Chair of the President’s Council on Integrity and Efficiency, I have had
the opportunity to work with the Inspector General community on a number of efforts to
enhance information technology programs across Government. To address the growing demand
for safeguarding and securing information technology systems, we established a President’s
Council Roundtable to facilitate relevant audits, evaluations, and investigations and to
coordinate the community’s perspective on information technology operations and programs
affecting all agencies.
The success of the OIG is directly dependent on the diligent work and commitment of our
employees. In the past year, I have received a number of communications complimenting the
work of our staff. The confidence expressed in the quality of our work has been gratifying.
The Department of Energy’s mission is critical to the security of this Nation. As always, we
look forward to continuing to serve the American public by identifying ways that the
Department can more effectively and efficiently achieve its mission responsibilities.




                                                 Gregory H. Friedman
                                                 Inspector General


                                                 1
U . S . D E PA RT M E N T O F E N E R G Y                  OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                     2
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                  Accomplishments Addressing
                  Management Challenges
Each year, the Office of Inspector General identifies what it considers to be the most
significant management challenges facing the Department. This effort highlights those
programs and operations that are, in our judgment, the most difficult to manage as well as
those with the most significant demonstrated performance problems. This year, the OIG
determined that the most serious challenges facing the Department are in the areas of:

      ■ Safeguards and Security
      ■ Environmental Cleanup

      ■ Stockpile Stewardship

      ■ Contract Management

      ■ Project Management

      ■ Cyber Security

      ■ Energy Supply



Highlights of our work during the current reporting period, which are set forth in the
following sections of this report, are organized by management challenge area.




Safeguards and Security
The Department plays a fundamental role in the Nation’s security by ensuring the safety of
the country's nuclear weapons, advancing nuclear non-proliferation, and providing safe and
efficient nuclear power plants for the United States Navy. Mission-related activities include
maintaining stewardship of vital national security capabilities, which range from nuclear
weapons to leading research and development projects, protecting nuclear weapons secrets,
and protecting other sensitive information. In order to accomplish this mission, the
Department maintains a substantial security regime, which includes over 4,000 protective
force personnel and various physical safeguards for classified material and other sensitive
property. Our reviews over the past six months identified ways that the Department could
improve security across the Department.




       Public reports are available in full text on our website at www.ig.energy.gov


                                              3
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Implementation of the Design Basis Threat
The Department uses the Design Basis Threat (DBT) process to identify the most credible
threats adversaries pose to highly sensitive and classified Departmental assets and operations.
Sites engaged in the energy, science, and environmental (ESE) components of the
Department’s mission are required to comply with the DBT. An audit was initiated to
review implementation of the DBT at various ESE sites containing substantial quantities of
sensitive special nuclear materials. We found that although there was significant progress in
implementing measures necessary to meet the first phase of the DBT requirements, the
majority of ESE sites we reviewed were unlikely to meet the more stringent DBT provisions
required by the end of September 2008. (IG-0749)


Wildland Fire Planning and Preparation
                                          In 2000, the Department experienced several large
                                          wildland fires that threatened the safety of
                                          personnel, facilities, and equipment at the Los
                                          Alamos National Laboratory (Los Alamos), the
                                          Hanford Site, and the Idaho National Laboratory.
                                          These fires burned over 212,000 acres of
                                          Department land, resulting in fire-related costs
                                          totaling almost $130 million at Los Alamos alone.
                                          An audit was initiated to determine whether the
                                          Department had taken action to identify possible
Controlled burn at Hanford.               hazards associated with wildland fires and mitigate
the impacts of these fires. Our review revealed that all three sites had made a number of
improvements in this area; however, essential wildland fire mitigation activities involving the
assessment and removal of vegetation and the maintenance of roads had either not been
performed or were not completely effective. (IG-0760)


Mismanagement of Protective Force Supply Room at Lawrence
Livermore National Laboratory
In February 2006, the OIG received an allegation that the Lawrence Livermore National
Laboratory (Livermore) protective force supply room was being mismanaged. Our inspection
concluded that the conditions in the supply room created an environment where security
equipment was vulnerable to loss or theft. Specifically, we found that the operation of
Livermore’s protective force supply room did not include: (1) adequate organization,
accountability, and requisition processing for mission-related equipment; (2) a shelf stock of
mission-related equipment for issuance to the protective force; or (3) appropriate measures to
properly secure unused Security Police Officer metal badges (shields), as required by
Department of Energy (DOE) policy. As a result, we made several recommendations to
management intended to enhance protective force security operations at Livermore. (IG-0742)


                                               4
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Canine Program Inadequacies at Selected Department Sites
The Department’s Canine Program plays a pivotal role in identifying and deterring potential
threats to facilities and personnel. Department site canine teams are trained in explosives
detection, suspect apprehension, and search techniques. The OIG initiated an inspection to
review the Canine Programs at three Department sites and concluded that the programs
were inadequate in a number of respects. Specifically, we found that half of the canine
teams failed the explosives detection evaluation; each of the canines we observed in suspect
apprehension demonstrations failed to respond to at least one of the handler’s commands;
and the canines were not receiving the minimum number of hours of weekly training for
explosives detection. We made several recommendations to address these issues and enhance
security. (IG-0755)


Safety and Security Concerns Over Hydroelectric Dams
The OIG initiated an audit to determine whether the Federal Energy Regulatory
Commission (FERC) had resolved issues identified in a prior audit report related to its Dam
Safety Program and had implemented an effective security program. Our review revealed
that FERC made a number of improvements to its Dam Safety Program. We noted,
however, weaknesses in the program related to dam security inspection, analysis, and review
activities. In our judgment, these weaknesses adversely impacted the Commission’s ability
to oversee the security of hydroelectric dams within its jurisdiction. As a result, we made
several recommendations designed to enhance the effectiveness of FERC’s dam security
program. (IG-0750)



                                            Did you know?
 The Federal Power Act authorizes FERC to issue licenses for hydroelectric project
 works, including dams, reservoirs and other works to develop and improve navigation
 and to develop and use power.



Material Control and Accountability at Lawrence Livermore
National Laboratory
As part of Livermore’s fundamental science and stockpile stewardship programs, Laboratory
personnel perform tests and study various characteristics of accountable nuclear materials
such as plutonium, enriched uranium, americium, and depleted uranium. An OIG
inspection was initiated to determine if Livermore was providing timely and accurate
information regarding the inventory, transfers, characteristics, and location of accountable
nuclear materials. Our review concluded that, in general, Livermore’s Material Control and
Accountability Program provided timely and accurate information. However, we observed
that certain inventory procedures were not consistent with program requirements. We also


                                                  5
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




identified a number of instances where Livermore’s material tracking database did not
accurately reflect the status or location of materials in an area. Consistent with the
Department’s graded approach to safeguards, we made several recommendations to
management designed to enhance Livermore’s ability to deter, detect, and assist in the
prevention of the theft or diversion of accountable nuclear materials. (IG-0745)


Drug Testing of Security Personnel at Portsmouth and Paducah
According to DOE regulations, specified individuals, including protective force personnel
who possess firearms, will be subject to random drug testing. The OIG initiated an
inspection at the Department’s Portsmouth and Paducah Gaseous Diffusion Plants to
evaluate their drug testing programs. Our inspection revealed that random drug testing
requirements for protective force personnel had not been implemented at either site. We
recommended that the Manager, Oak Ridge Office, establish a workplace substance abuse
program for protective force officers at Portsmouth and Paducah. (INS-L-07-01)




Environmental Cleanup
Department efforts to clean up and dispose of large volumes of solid and liquid radioactive,
non-radioactive, and mixed waste have become essential as a result of more than 50 years of
nuclear defense work and energy research.


Remediation of the Waste Burial Grounds at Hanford
                                                The OIG initiated an audit to determine if the
                                                Department had developed a comprehensive
                                                cleanup strategy for the remediation of the burial
                                                grounds storing nuclear waste at Hanford. Our
                                                audit found that the Department’s remediation
                                                strategy: (1) may produce a waste form or waste
                                                package that, in some cases, will not meet the
                                                Department’s current acceptance criteria for
                                                interim storage or disposal, and (2) did not reflect
                                                the cost to prepare the retrieved waste to meet
Retrieval of buried waste from low-level burial
grounds at Hanford.
                                                waste acceptance criteria for storage or final
                                                disposal. As a result, the Department may incur
up to $188 million more than planned to store, monitor, and manage waste retrieved from
the burial grounds. We made recommendations to ensure that these issues are addressed as
remediation plans for the burial grounds evolve. (IG-0743)



                                                 6
OFFICE OF INSPECTOR GENERAL                                  U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Follow-up of Depleted Uranium Hexafluoride Conversion
                                              The OIG initiated an audit to determine if the
                                              Department had performed a cost-benefit analysis
                                              and implemented the most cost-effective approach
                                              to converting depleted uranium hexafluoride to a
                                              more stable form at the Portsmouth Gaseous
                                              Diffusion Plant. Our audit found that the
                                              Department performed a cost-benefit analysis in
                                              May 2005 which showed that adding an
                                              additional conversion line to the Portsmouth
                                              facility could save about $60 million. Yet, the
Depleted Uranium Hexafluoride cylinders
at Portsmouth.
                                             Department     had not taken steps to implement this
                                             cost-effective approach. We determined that, if
implemented now, the Department could still save $35 million in life-cycle costs by
reducing the operations schedule by nearly five years. Management agreed to consider the
advisability of installing the fourth line after commencement of plant operations and plans
to direct a macroassessment to further evaluate this option. (IG-0751)




Stockpile Stewardship
The Department is responsible for the maintenance, certification and reliability of the
Nation’s nuclear weapons stockpile. In order to ensure that our nuclear weapons continue to
serve their essential deterrence role, the Department maintains stockpile surveillance and
engineering capability, refurbishes selected nuclear systems, and sustains the ability to restore
the manufacturing infrastructure for the production of replacement weapons.


Follow-up on Stockpile Surveillance Testing
In 2001, the OIG reported that the Department was behind schedule in conducting several
of the nuclear weapons stockpile surveillance tests. The OIG initiated a follow-up audit to
determine whether the Department had resolved the weapons surveillance testing backlog.
We concluded that, although the Department made some progress, the Department had not
eliminated the backlog. As a result, the Department may lack vital information about the
reliability of its nuclear weapons stockpile. Further, testing delays could lead to failures in
detecting important operating anomalies or other defects. (IG-0744)




       Public reports are available in full text on our website at www.ig.energy.gov




                                                7
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Concerns Over TA-18 Mission Operations
To consolidate special nuclear material in a more secure facility, in December 2002, NNSA
announced its decision to relocate Technical Area 18 (TA-18) from Los Alamos to the
Device Assembly Facility (DAF) at the Nevada Test Site. To minimize the mission impact
of the relocation, program officials were directed to prepare a Closure Plan and establish
interim criticality operations capability at Los Alamos and DAF as soon as mid-Fiscal Year
(FY) 2005 and to terminate TA-18 operations by FY 2008. The OIG initiated an audit to
determine whether NNSA minimized the impact of the TA-18 relocation on mission
operations. Our audit revealed that, although its goal was to establish interim operations as
early as FY 2005, NNSA had not maintained the capability to conduct unique TA-18
criticality operations and is at risk of delays in re-establishing this capability at the new
Criticality Experiment Facility at DAF. (OAS-M-07-02)




Contract Management
To accomplish its mission, the Department places significant reliance on contractors,
employing over 100,000 contractor employees. Contracts are awarded to industrial
companies, academic institutions, and non-profit organizations that operate a broad range
of Department facilities. In fact, most of the Department’s operations are carried out
through contracts that consume about three-fourths of its budget. As a result, effective
contract administration is essential to ensuring Department programs and operations are
meeting the established missions and goals.


Management of Contractor Intergovernmental Personnel Act and
Change of Station Assignments
The Department’s contractor-operated facilities use Intergovernmental Personnel Act (IPA)
and Change of Station (COS) assignments to permit contractor employees to work at other
organizations. IPA assignments are temporary transfers of personnel between the contractor
and a Federal agency. Under COS assignments, personnel are temporarily transferred to a
non-Federal organization. The OIG initiated an audit to determine whether the
Department was effectively managing contractor use of IPA and COS assignments at
three NNSA national laboratories and three DOE science laboratories. A detailed review of
77 active IPA and COS assignments found that the Department was not actively ensuring
that the assignments were cost effective; operated in accordance with existing procedures or
good business practice; or that taxpayer-provided funds supporting IPA and COS
assignments were put to the best possible use. As a result, NNSA agreed to take the lead
for the Department in developing guidance to correct problems addressed in our report.
(IG-0761)



                                              8
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Excessing of Computers at Idaho National Laboratory
The OIG initiated an inspection at the Idaho National Laboratory (INL) to determine if
adequate policies and internal controls for excessing computers and other electronic memory
devices were in place to prevent the unauthorized dissemination of unclassified controlled
information. Our review revealed that INL did not always excess computers in accordance
with applicable policies and procedures, as exemplified by its sale of a computer containing
unclassified controlled information at a public auction in 2004. We also found that INL’s
former management contractor did not revise and implement internal policies and
procedures to reflect new Department requirements on clearing, sanitizing, and destroying
information system storage media, memory devices, and other related hardware. Further,
we found that when a new company was awarded a contract in November 2004 to manage
INL, the Department’s Idaho Operations Office delayed incorporating into the contract
Department requirements on clearing, sanitizing, and destroying hard drives and other
memory devices. (IG-0757)


Excessing of Computers at Lawrence Livermore National Laboratory
The OIG initiated an inspection to determine if Livermore: (1) had excessed unclassified
computers and other electronic memory devices in accordance with applicable policies and
procedures and (2) had adequate internal controls in place to prevent the unauthorized
dissemination of unclassified controlled information during the excessing process. We
concluded that Livermore’s policies, procedures, and internal controls for excessing
unclassified computers and other electronic memory devices were not always consistent with
applicable DOE policies. Specifically, we found that:

      ■   NNSA delayed for 2 1/2 years having Livermore implement Department policy, first
          issued in February 2004, on clearing, sanitizing, and destroying memory devices.

      ■   Due to the delay in implementing the Department policy, the Laboratory did not
          establish certain site-wide procedures and internal controls necessary to ensure the
          proper clearing, sanitization, and destruction of memory devices.

We made several recommendations to management designed to enhance the security of
sensitive information and to improve contract administration. (IG-0759)




       Public reports are available in full text on our website at www.ig.energy.gov




                                                 9
U . S . D E PA RT M E N T O F E N E R G Y                  OFFICE OF INSPECTOR GENERAL
                          SEMIANNUAL REPORT TO CONGRESS




Project Management
The Department undertakes numerous unique and complex high cost projects in order to
support its mission. In recent years, the Department has implemented stronger policies and
controls to ensure that ongoing projects are reevaluated frequently. Recent OIG reviews
identified additional necessary improvements to ensure that the Department’s project
management principles are effective and accomplishing their goals.


Financial Management of Superconductivity Partnership Projects
                                                 The OIG initiated an audit to determine whether
                                                 the Office of Electricity Delivery and Energy
                                                 Reliability (OE) had effectively managed financial
                                                 assistance provided to its Superconductivity
                                                 Partnership projects. Our review revealed that
                                                 while efforts were taken to address certain
                                                 technical risks, the financial risks were not always
                                                 addressed, and changes in market conditions were
                                                 not always fully assessed. Of the 16 open
                                                 Partnership projects reviewed during this audit, 5
Checking a sample of thin film superconductivity
material in liquid nitrogen.
                                                 were identified as needing stronger financial review.
                                                 Consistent with Department guidance and sound
business practices, we recommended that the OE Director ensure that policies and
procedures relating to the financial management of its Partnership cooperative agreements
are developed and implemented. (OAS-M-07-01)


Recovery of Costs for the Proprietary Use of the Advanced
Photon Source
                                    The OIG initiated an audit to determine whether the
                                    Department was effectively recovering funds to offset
                                    operating costs for the proprietary use of the Advanced
                                    Photon Source, a light source user facility at the Argonne
                                    National Laboratory. Our audit revealed that the
                                    Laboratory: (1) charged hourly rates for proprietary usage of
                                    the Advanced Photon Source that did not sufficiently cover
                                    operating costs; (2) routinely reduced the number of hours
                                    charged from the time recorded by floor coordinators; and
                                    (3) did not always collect advances for proprietary
Diamond x-ray beam monitor at the   experiments or bill those conducting proprietary research in a
Advanced Photon Source.             timely manner. (IG-0753)



                                                 10
OFFICE OF INSPECTOR GENERAL                                  U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Cyber Security
The Department spends approximately $2.5 billion a year on information technology.
Recently, however, threats to the Department's information systems have increased. The vast
array of sensitive data that Department laboratories and facilities generate increases the
potential for compromise of sensitive information. While the Department has taken a
number of positive actions designed to improve the overall management of its cyber security
program, additional improvements in this critical area are still needed. During this
reporting period, the OIG conducted various reviews in this area that highlighted needs
for improvements.


Concerns over Classified Information at the Los Alamos
National Laboratory
At the request of the Secretary of Energy, the OIG reviewed the circumstances surrounding
an October 2006 incident involving the possible compromise of classified data by a former
subcontractor employee of NNSA’s Los Alamos National Laboratory. Our inquiry into the
incident revealed that, despite the expenditure of millions of dollars by NNSA to upgrade
various components of the Laboratory’s security apparatus, the security environment at the
Laboratory was inadequate. Our report made specific recommendations to the Department
to help strengthen security policies and procedures at both the Agency and the Laboratory.
(OAS-SR-07-01)


NNSA’s Cyber Security Program
At NNSA’s request, and consistent with findings in the OIG’s annual evaluation report on
The Department’s Unclassified Cyber Security Program - 2006 (IG-0738), we initiated a review
of NNSA’s unclassified cyber security program. Our audit revealed that NNSA had
implemented a number of measures designed to reduce cyber security risks and
vulnerabilities. However, we identified a number of deficiencies that exposed critical
unclassified systems to an increased risk of compromise. (IG-0758)


Certification and Accreditation of Unclassified Information Systems
The Department’s certification and accreditation (C&A) process is designed to ensure that
its information systems are secure prior to beginning operation and that they remain so
throughout their lifecycle. Previous OIG reports identified several Department sites that
had incomplete C&A processes and that failed to comply with National Institute of
Standards and Technology cyber security requirements. Because of these problems, we
initiated an audit to determine whether the Department’s unclassified information systems



                                            11
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




had been appropriately certified and accredited for operation. Our review revealed that,
despite recent efforts by the Department to strengthen its guidance on the C&A process,
many of its systems were not properly certified and accredited for operation. As a result, we
made several recommendations designed to strengthen the C&A process and improve the
Department’s cyber security posture. (IG-0752)


Controls Over Computer Property at the Department’s
Counterintelligence Directorate
The OIG initiated an inspection to evaluate the adequacy of internal controls over
computer property maintained by the Department’s Counterintelligence Directorate at
Headquarters. We concluded that internal controls over classified and unclassified
computer property at the program office were inadequate. Specifically, we found that the
Counterintelligence Directorate: (1) could not locate 20 desktop computers listed on its
property inventory that either processed or may have processed classified information;
(2) had 57 computers that were not included on the Counterintelligence Directorate’s
property inventory; (3) had expired loan agreements for 96 Headquarters computers that
were located at field sites; and (4) had no labels affixed to 74 computers indicating
classification level. (IG-0762)


Implementing Common Information Technology Services
at Headquarters
In 2003, the Department launched an initiative to consolidate all aspects of common
information technology systems. The OIG initiated a review to determine whether DOE’s
Common Operating Environment (DOE-COE) initiative was meeting planned goals and
objectives. Our audit revealed that although the Department had made progress in
implementing DOE-COE at Headquarters, it had not fully achieved the goals and
objectives envisioned by the original initiative. As such, we made recommendations
designed to help improve the continuing implementation and operation of the DOE-COE
initiative. (IG-0763)




      Public reports are available in full text on our website at www.ig.energy.gov




                                             12
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Energy Supply
Over the last several years, energy consumption in the United States and throughout the rest
of the world has grown substantially. As a result of this growth, as well as other world
events, the United States' energy supply has come under stress, and obstacles have arisen that
create challenges for achieving a stable and reliable energy supply system. The Department
is in a unique position to help ensure that the Nation's energy needs are met through sound
energy policy, research and development, and overall leadership.


The Strategic Petroleum Reserve’s Response to Hurricanes Katrina
and Rita
                                                  The OIG conducted an audit to determine
                                                  whether the Strategic Petroleum Reserve met its
                                                  energy security mission in response to Hurricanes
                                                  Katrina and Rita. We found that the Department
                                                  used the Reserve and its assets with great
                                                  effectiveness to address emergency energy needs in
                                                  the crisis surrounding the hurricanes. The
                                                  findings of our audit were generally positive.
                                                  However, we found that while the alternate
                                                  computer facility, located 55 miles northeast of the
Holding tanks at the Strategic Petroleum Reserve. primary site, appeared acceptable under most
circumstances, the far-reaching impact of Katrina proved that the proximity of the alternate
site to the primary facility was less than optimal and affected the prompt restoration of
computer network services vital to continuity of operations of the Reserve. Given the
relative frequency of major hurricanes in the vicinity of the Reserve’s primary facility, we
concluded that management should consider moving the alternate site to a more remote
location. (IG-0747)


                                            Did you know?
     The Strategic Petroleum Reserve is the largest stockpile of Government-owned
     emergency crude oil in the world. Established in the aftermath of the 1973-74 oil
     embargo, the Reserve provides the President with a response option should a
     disruption in commercial oil supplies threaten the U.S. economy.




                                                 13
U . S . D E PA RT M E N T O F E N E R G Y                    OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                     14
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                  Significant Investigative
                  Accomplishments
Multiple Individuals Prosecuted for a Company-Wide
Fraud Scheme
A joint OIG investigation with other law enforcement agencies determined that the owners
and employees of a metal distribution company orchestrated a company-wide scheme to
provide fraudulent test certifications and substandard metals to the Government and its
contractors in the defense, nuclear, and aerospace industry. Over 50 orders were affected by
the scheme, including critical applications. Five individuals pled guilty to multiple counts,
which included: false statements, false claims, and conspiracy. The two owners of the
company were sentenced to a total of 51 months incarceration, 4 years of supervised release,
and assessed $397,360.96 in restitution and fines. One employee was sentenced to 2 years
probation, 3 months of house arrest, and fined a $100 special assessment fee. Another
employee was sentenced to 18 months probation and ordered to pay $7,288 in restitution
and fines. The other individuals are awaiting sentencing. The company and its owners have
been debarred from Government contracting for three years, and the company’s employees
were suspended indefinitely pending debarment action. (I04AL002)


Settlement Reached in Civil False Claims Investigation
An OIG investigation determined that an NNSA contractor at the Savannah River Site
double-billed the Department between 1997 and 2004 by charging costs, such as
depreciation and lease expense on Light Weight Truck (LWT) casks, to both direct and
overhead accounts. The LWT casks are used to store and transport spent nuclear materials
from foreign countries back to the U.S. for processing and storage. The contractor entered
into a $1.2 million civil settlement with the U.S. Government. Of those funds, $700,000
will be returned to the Department. (I03SR003)


Former National Renewable Energy Laboratory Employee
Sentenced for Wire Fraud Scheme
As previously reported, an OIG investigation determined that a National Renewable Energy
Laboratory employee conspired with a print shop vendor to submit 97 false claims totaling
$126,175 for payment of bogus print jobs. The employee used a Government purchase
card to pay for the fraudulent claims and subsequently shared the proceeds with the print
shop owner. Both individuals pled guilty to various criminal violations. During this
reporting period, the former Laboratory employee was sentenced to 12 months of house


                                             15
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




arrest, 5 years of probation, and ordered to pay restitution of $126,000. The court further
ordered that, upon completion of house arrest, the subject receive psychological counseling.
The print shop vendor was also sentenced to 3 years of probation, 200 hours of community
service, and ordered to pay a special assessment fee of $100. (I02DN003)


Improper Award of Subcontract by Department Contractor
An OIG investigation determined that a contractor at the Pacific Northwest National
Laboratory provided inaccurate and potentially misleading information in response to a
Department inquiry into the award of a subcontract. The investigation also determined
that the contractor failed to follow approved subcontracting procedures and may have
inappropriately lobbied for the subcontract project funding. As a result of our Investigative
Report to Management, the Department reduced the contractor’s award fee. The contractor
also took a variety of actions, including returning $250,000 to the Department.
(I05RL004)


Contractor Employee Debarred After Theft Conviction
As previously reported, an OIG investigation determined that a Department contractor
employee stole 628 pounds of aluminum wire from the Oak Ridge National Laboratory and
sold it to a local metals dealer for personal gain. The OIG recovered the wire and obtained
a confession from the subject. The subject resigned, pled guilty to one violation of
Tennessee Code Annotated 39-14-103 (Theft of Property, Class E Felony), and was
subsequently sentenced to two years of probation. During this reporting period, the former
contractor employee was debarred from Government contracting for a three-year period.
(I04OR003)


Individual Pleads Guilty to Tax Fraud and Conspiracy
A joint OIG investigation with other law enforcement agencies determined that an
individual and a co-conspirator diverted, for personal use, approximately $4 million in
Department monies originally intended for safety subcontracts at Russian nuclear power
plants. The individual pled guilty to eight counts of Tax Fraud and one count of
Conspiracy and was assessed a fee of $100 for each count, totaling $900. The plea
agreement stipulated that the individual forfeit all of his illegal proceeds. The individual is
currently awaiting sentencing, and the co-conspirator is facing criminal violations in Russia.
(I02HQ010)




                                              16
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Department Courier Pleads Guilty to Wire Fraud and Possession of
Unregistered Firearms
A joint OIG investigation with other law enforcement agencies determined that a
Department courier at the Pantex Plant attempted to sell and had sold Department
equipment restricted for use by Government, law enforcement, and military personnel.
Couriers are responsible for moving nuclear weapons, special nuclear material, selected non-
nuclear weapons components, limited-life components, and other materials requiring secure
transport. The subject pled guilty to one count of Wire Fraud and one count of Possession
of Unregistered Firearms. The subject was sentenced to 30 months of incarceration for each
of the 2 counts, to be served concurrently, and 3 years of supervised release. The subject
was also assessed $8,489 in restitution, $200 in Special Assessments, and a $10,000 fine.
(I05AL010)


Guilty Verdicts for Department Subcontractor, Company President,
and Chief Operating Officer
A joint OIG investigation with other law enforcement agencies determined that a
Department subcontractor, company President, and Chief Operating Officer were involved
in a scheme to launder money obtained from Department contracts. Specifically, the
scheme involved the use of various businesses owned by the President and the Chief
Operating Officer, the company President’s family members, and various business associates.
A jury in the U.S. District Court for the Eastern District of Tennessee found the
subcontractor company guilty of Conspiracy to Defraud the Government (Conspiracy). In
addition, the jury found the company’s President guilty of Conspiracy, Theft of Government
Property, and Money Laundering. The jury also found the Chief Operating Officer guilty
of Money Laundering. During a previous reporting period, a business associate pled guilty
to one count of Conspiracy in the Eastern District of Tennessee. All subjects are awaiting
sentencing. (I00OR008)


Contractor Employee Sentenced to 16 Years in Prison
A joint OIG investigation with the Livermore Police Department determined that a
contractor employee at Lawrence Livermore National Laboratory maintained child
pornography on his Government-owned computer and engaged in sexual activity with a
mentally handicapped adult. The subject’s employment was subsequently terminated. The
subject pled no contest to 2 sex offenses and 9 counts of Production of Child Pornography
and was sentenced to 16 years in prison. (I06TC011)




                                             17
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                    SEMIANNUAL REPORT TO CONGRESS




Contractor Employee Pleads Guilty to Possession of
Stolen Property
An OIG investigation determined that a Bonneville Power Administration contractor
employee accessed a leased Department facility after hours, using unauthorized master keys,
and stole computer equipment, office equipment, and software valued in excess of $95,000.
The subject pled guilty to one count of First Degree Possession of Stolen Property and was
sentenced to 90 days incarceration and ordered to pay $2,000 in fines. (I04RL007)


Los Alamos National Laboratory Employee Pleads Guilty
An OIG investigation determined that a Los Alamos employee falsely requested three checks
payable to a fictitious entity totaling $55,000. The employee, who was also a purchase
buyer, personally picked up the checks and deposited them into a personal credit union
account. The individual pled guilty in the U.S. District Court for the District of New
Mexico to violations of False Statements, False Claims, and Theft. Sentencing is pending.
(I05AL013)


Department Grantee Employee Pleads Guilty to Mail Fraud
A joint OIG investigation with other law enforcement agencies determined that a grantee
employee used a purchase card issued by a Department grantee to make fraudulent
purchases totaling approximately $18,000. The grantee employee subsequently charged
these costs to grant programs funded by the Department and the National Science
Foundation. The individual then sold 37 of these items (including Apple iPods and a Dell
Personal Digital Assistant) on eBay for a profit of $10,000. The employee pled guilty to
one count of mail fraud in Federal District Court in Denver, Colorado, and is currently
awaiting sentencing. (I05DN001)


Canadian Subject Pleads Guilty to Computer Compromise
A joint OIG investigation with the Royal Canadian Mounted Police and the Federal Bureau
of Investigation determined that a Canadian citizen compromised an unclassified
Department computer at the Los Alamos National Laboratory, as well as committed bank
fraud, wire fraud, and identity theft unrelated to the Department. The subject pled guilty
to several Canadian Criminal Code offenses and was sentenced to 12 months probation and
200 hours of community service. (I05TC006)




                                            18
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Individual Sentenced in Counterfeit Ring
A joint OIG investigation with other law enforcement agencies found seven individuals
engaged in a fraud and forgery criminal enterprise that produced counterfeit business checks
and identification documents, including counterfeit payroll checks from the Department’s
National Renewable Energy Laboratory. One individual was sentenced to 18 years in prison
after pleading guilty to Colorado State charges relating to the criminal enterprise. The same
individual also pled guilty to Federal charges and was sentenced to 33 months incarceration,
3 years of supervised release, and 500 hours of drug treatment. The two sentences will run
concurrently. Another individual pled guilty to theft and was sentenced to six years
incarceration. A third individual pled guilty to Colorado Organized Crime Control Act
charges and was sentenced to 10 years incarceration and assessed $5,135.78 in restitution.
Action is pending against the remaining individuals. (I06DN001)


Department Manager Convicted for Conflict of Interest
An OIG investigation determined that a GS-15 manager at the Bonneville Power
Administration used her official position to help her spouse obtain a job with a Bonneville
contractor. The spouse earned nearly $100,000 in salary and commissions, as well as a
company-paid trip to Hawaii, while employed for 7 months with the contractor. The
manager also failed to submit proper recusal documentation when her spouse was hired.
Upon filing the documentation three months later, the subject misstated her spouse’s
employment start date and continued, as a Federal employee, to participate in meetings and
decisions that resulted in additional business for the contractor. The Department suspended
the subject’s employment in June 2005 and, in lieu of termination, the manager resigned in
January 2007. A jury convicted the subject for conflict of interest, wire fraud, and making
a false statement. The subject is currently awaiting sentencing. (I03RL017)


Concerns Over Subcontractor Quality Assurance Program
An OIG investigation identified systematic weaknesses in the quality assurance program
of an NNSA subcontractor who manufactures uranium containment vessels and weapons
shipping cylinder assemblies. As a result of an Investigative Report to Management,
NNSA evaluated the subcontractor’s quality assurance program and found it to be
unsatisfactory. NNSA subsequently mandated that a corrective action plan be completed
by the subcontractor and provided to the U.S. Nuclear Regulatory Commission.
A re-inspection of the weapons assemblies previously received by the Department from the
subcontractor did not uncover any quality issues. (I06OR008)




                                             19
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Employee Terminated for Violating Terms of Recusal Statement
An OIG investigation determined that a senior level Department manager violated the
terms of his recusal statement by approving funds for Departmental sites that were
responsible for administering programs and awarding several subcontracts to a company
owned by the individual’s spouse. The individual also failed to disclose his spouse’s
involvement with the company on his Office of Government Ethics Form 450,
“Confidential Financial Disclosure Report.” In response to our report, the senior level
official was removed from employment in the Federal Service. (I04CH005)


Department Employee Disciplined for Disclosing Source
Selection Information
A joint OIG investigation with other law enforcement agencies determined that a
Department employee at the Hanford Site violated the Procurement Integrity Act by
disclosing on at least two occasions source selection information. As a result of an
Investigative Report to Management, the employee was suspended from work for seven
calendar days and suspended from procurement activities for a minimum of one year. The
employee, who at the time was being considered for a security clearance, was also suspended
from consideration for a security clearance for a period of one year. In addition, the
employee was required to complete “Ethics in Contracting” training. (I01RL003)


Award Fee Reduced for Department Contractor
An OIG investigation determined that a contractor at the Pacific Northwest National
Laboratory provided misleading information to the Department when requesting approval
of a Cooperative Research and Development Agreement (CRADA) with a company owned
and operated by two of the contractor’s employees. The two contractor employees
continued to work and earn their full-time salaries from the contractor during the three-plus
years they held the CRADA. In response to our report, the Department disallowed a total
of $233,038.63 in costs, which included a portion of the employees’ salaries during the
CRADA. (I03RL015)




                                             20
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                  Other Significant
                  Accomplishments
Administrative Safeguards

Special Report to the Department on Methamphetamine Problem
The OIG issued a special report to the Department discussing the impact of the
methamphetamine problem in and around Department facilities. The report highlighted an
increasing number of investigations detailing methamphetamine abuse by Federal and
contractor employees, in which costly drug habits appeared to be a primary cause of illicit
activities. The report presented three proposals for the Department to consider to ensure
Department managers are cognizant of the internal and external threats posed by
methamphetamine use and trafficking. (October 2006)


Chemical Safety Protocols at the Pantex Plant
The Pantex Plant, a nuclear weapons assembly and disassembly facility, uses approximately
3,000 different kinds of hazardous chemicals, including acids, bases, flammable and
combustible liquids, compressed gases, toxics, and explosives. The OIG initiated an
inspection at Pantex to determine if the site management contractor implemented an
effective chemical safety program. Our review revealed that several aspects of the program
needed improvement. Specifically, we found that: (1) a compressed gas facility containing
numerous flammable chemicals did not have a means to summon the fire department and
lacked a fire extinguisher; (2) safety warning signs were not posted outside several facilities
containing hazardous chemicals; and (3) an eye wash and a safety shower in a hazardous
chemicals storage building were not inspected for four consecutive quarters. We also noted
significant discrepancies in the hazardous chemical inventory at Pantex. As a result, we
made several recommendations to the Pantex Site Office Manager to ensure that the
contractor implemented improvements in its chemical safety program. (IG-0756)


                                            Did you know?
   The Pantex Plant is the Nation’s only nuclear weapons assembly and disassembly
   facility. Located on the High Plains of the Texas Panhandle, 17 miles northeast of
   Amarillo, Pantex is centered on a 16,000 acre site.




                                                 21
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Alleged Work Package Falsification at Los Alamos
National Laboratory
Based upon an allegation that work packages at Los Alamos were being falsified in certain
respects, compromising the safety of work activities, the OIG initiated an inspection. Our
review identified various work package issues and instances of non-compliance with
applicable policies and procedures. For example, we found that work package authorizing
signatures and dates were often missing. In addition, we identified several internal and
external reviews at Los Alamos that demonstrated similar work package issues have existed
since at least 2002, with various corrective actions having failed to resolve these problems.
As a result, we made several recommendations to the Los Alamos Site Office to enhance the
work package process and, thus, safety and security at the Laboratory. (IG-0746)


Procurement Card Irregularities at Sandia National
Laboratory-California
As part of an OIG proactive initiative, we conducted an inspection of Sandia National
Laboratory-California’s (Sandia’s) procurement card program. Our inspection revealed that
Sandia’s internal controls did not ensure that purchases made using procurement cards were
in accordance with applicable policies and procedures. Specifically, we found that managers
approved transactions that lacked adequate descriptions and restricted items were purchased
without the appropriate authorization. We also identified items of questionable allowability,
such as catered meals and “souvenirs.” Further, we questioned whether the issuance of
procurement cards to 44 percent of Sandia employees was consistent with procurement card
guidance on limiting the number of procurement card users. As a result, we made several
recommendations designed to improve internal controls over Sandia’s purchase card
program. (IG-0754)


Missing I-9 Forms at Pantex
The OIG initiated an inspection based on an allegation that over 400 employees’ I-9 forms,
which are used to record verification of proof of citizenship, were either lost or stolen from
NNSA’s Pantex Plant. Concern was expressed that the missing forms, which contained
personally identifiable information, such as social security number and date of birth, could
be used to steal identities or create false documentation to gain unauthorized access to
Pantex. Our review concluded that Pantex had significant internal control weaknesses in the
management and retention of I-9 forms. However, we could not reach a definitive
conclusion regarding whether I-9 forms were lost or stolen from Pantex. We made several
recommendations to the Pantex Site Office Manager to ensure that I-9 forms are
appropriately obtained, stored, and retained and that employees are notified in instances of
possible loss or theft of these forms. (INS-L-07-05)




                                             22
OFFICE OF INSPECTOR GENERAL                             U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




The Department’s Fiscal Year 2006 Consolidated Balance Sheet
An OIG audit revealed that the Department’s Office of Chief Financial Officer made
substantial progress in correcting a number of financial controls and reporting weaknesses
that resulted in a disclaimer of an audit opinion on the FY 2005 financial statements.
Except for the effects of not properly accounting for and reporting undelivered orders, the
FY 2006 consolidated balance sheet presented fairly in all material respects the financial
position of the Department. The weaknesses affecting undelivered orders were associated
with controls over the recording of obligations and the de-obligation of funds.
(OAS-FS-07-02)




Results

Highlights of Positive Results Based on Office of Inspector
General Work
During this reporting period, the Department took positive actions as a result of OIG work
conducted during the current or previous periods. Consistent with our findings and
recommendations:

   ■   The Department reduced the award fee for a contractor at the Pacific Northwest
       National Laboratory by $366,660 as a result of three Investigative Reports to
       Management concerning misleading information provided by the contractor to
       the Department.

   ■   The Chief Information Officer (CIO) and the Cyber Security Working Group
       undertook preparation of new, long-term cyber security guidance on the disposal of
       hard disk drives and other magnetic computer storage media and devices. Further, the
       CIO issued interim guidance stating that (1) no hard disk drive or other magnetic
       computer storage media or device should be sold, donated, or transferred to an off-site
       contractor or other organization for disposal and (2) degaussing should not be used as
       the sole means to purge data from these items.

   ■   The Office of Intelligence and Counterintelligence has taken action to ensure that
       NNSA’s export control analysts have continued direct access to intelligence-related
       documents and computer systems. This will allow the analysts to have access to
       updated and relevant intelligence information when reviewing export license
       applications and participating in interagency export groups.




                                               23
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




   ■   The Secretary of Energy approved the establishment of a Biosurety Executive Team,
       which will address biosafety and related security issues that are likely to emerge and
       recommend the establishment of biosurety-related policies, regulations, requirements,
       and standards. The Team will also serve to elevate the awareness of senior management
       to issues that could potentially impact the Department’s missions of national security
       and ensuring the health and safety of Department employees and the public.

   ■   Los Alamos National Laboratory has held a series of meetings to re-emphasize
       the importance of the preparation, review, and approval of Integrated Work
       Management documentation.

   ■   The Department introduced Enterprise Licensing Agreement (ELA) Programs as a
       strategic priority for consolidating software services and acquisitions, thereby saving
       taxpayer money. This strategy was supported by the establishment of an ELA
       Integrated Project Team. The Department also negotiated several new enterprise
       agreements, providing significant savings on software costs. Further, the Department
       continued to extend software standards to additional programs at Headquarters and has
       committed to implementing a system to track its software inventory to optimize the
       utilization of existing licenses.

   ■   The Department took action to revise the Arming and Arrest Authority Security Plan
       for the Portsmouth and Paducah Gaseous Diffusion Plants. The revision includes a
       requirement for the development of a random drug testing program pursuant to 10
       CFR 707, Workplace Substance Abuse Programs at DOE Sites.




Congressional Responses

During this reporting period, the OIG provided information at the request of Congress in
15 instances and briefed Committee staff on 11 occasions. In addition, the OIG testified
at two congressional hearings: (1) on January 30, 2007, before the Subcommittee on
Oversight and Investigations, House Committee on Energy and Commerce, entitled
“Continuing Security Concerns at the Los Alamos National Laboratory”; and (2) on
March 20, 2007, before the Subcommittee on Government Management, Organization,
and Procurement, House Committee on Oversight and Government Reform, entitled
“Financial Management Hearing.”




                                              24
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Hotline System

The OIG operates a Hotline System to facilitate the reporting of allegations involving the
programs and activities under the auspices of the Department. During this reporting
period, 581 complaints were processed. The OIG Hotline System can be reached by calling
1-800-541-1625 or 1-202-586-4073.




Management Referral System

The OIG operates an extensive Management Referral System. Under this system, selected
matters received through the OIG Hotline or other sources are referred to the appropriate
Department manager or other Government agency for review and appropriate actions.

The OIG referred 90 complaints to Department management and other Government
agencies during this reporting period and specifically requested Department management to
respond concerning the actions taken on 45 of these complaints. Otherwise, Department
management is asked to respond if it develops information or takes action that it believes
should be reported. The following demonstrates management’s use of OIG-provided
information to stimulate positive change or to take decisive action:

   ■   In response to a referral based on an allegation that a subcontractor employee was
       using Government communications equipment to harass a member of the public,
       management determined that the employee improperly used both Government time
       and equipment. As a result, the subcontractor was required to reimburse the prime
       contractor for the misuse of resources, and the subcontractor terminated the
       offending employee.

   ■   In response to a referral based on an allegation that outside individuals could mimic the
       Department’s website by exploiting a cross-scripting vulnerability, the program office
       immediately fixed the vulnerability and reviewed other applications to see if they were
       also vulnerable to this sort of attack.




                                               25
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Qui Tams

Since 1996, the OIG has been instrumental in working with the Department of Justice in
Qui Tam cases. The OIG is currently working on 20 Qui Tam lawsuits involving alleged
fraud against the Government in the amount of approximately $140 million. These cases
are highly resource intensive, requiring the active participation of OIG investigative and
audit assets. However, they have proven to be targets of opportunity within the Department
of Energy with a high return on our investments.


                                      Did you know?
   The False Claims Act prohibits any person from “knowingly” presenting a “false or
   fraudulent claim for payment or approval” to the Federal Government. The Act
   authorizes individual citizens to bring private suits, referred to as Qui Tam actions, to
   enforce the Act on behalf of the Government.




Intelligence Activities

The OIG issued two quarterly reports pursuant to Executive Order 12863, “President’s
Foreign Intelligence Advisory Board.” The Order requires the Inspectors General of the
Intelligence Community to report to the Intelligence Oversight Board concerning
intelligence activities the Inspectors General have reason to believe may be unlawful or
contrary to Executive order or Presidential directive. No intelligence activities contrary to
Executive order or Presidential directive were reported during this period.




Legislative and Regulatory Review

The Inspector General Act of 1978, as amended, requires the OIG to review and comment
upon legislation and regulations relating to Department programs and to make
recommendations concerning the impact of such legislation or regulations on Departmental
economy and efficiency. The OIG coordinated and reviewed 34 legislative and regulatory
items during the reporting period.




                                              26
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Reports Issued
Audit Reports Issued – October 1, 2006 to March 31, 2007

Report                                                  Date of                 Questioned
Number                           Title                   Issue      Savings       Costs
IG-0743            Remediation of the Waste Burial      10-18-06
                   Grounds at the Hanford Site
IG-0744            Follow-Up Audit on Stockpile         10-30-06
                   Surveillance Testing
IG-0747            The Department of Energy's Use     12-05-06
                   of the Strategic Petroleum Reserve
                   in Response to Hurricanes Katrina
                   and Rita
IG-0748            Management Challenges at the         12-13-06
                   Department of Energy
IG-0749            The Department's Energy, Science, 12-14-06
                   and Environment Sites'
                   Implementation of the Design
                   Basis Threat
IG-0750            The Federal Energy Regulatory        12-18-06
                   Commission's Program to Oversee
                   Hydroelectric Dams
IG-0751            Follow-up of Depleted Uranium        12-26-06 $35,000,000
                   Hexafluoride Conversion
IG-0752            Certification and Accreditation of   01-03-07
                   Unclassified Information Systems
IG-0753            Recovery of Costs for the            01-11-07   $4,300,000
                   Proprietary Use of the Advanced
                   Photon Source
IG-0758*           The National Nuclear Security       02-22-07
                   Administration's Implementation
                   of the Federal Information Security
                   Management Act




                                                27
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                  SEMIANNUAL REPORT TO CONGRESS




Report                                            Date of                    Questioned
Number                     Title                   Issue        Savings        Costs
IG-0760        The Department's Wildland Fire     03-06-07
               Planning and Preparation Efforts
IG-0761        The Department of Energy's         03-26-07 $11,902,000            $289,000
               Management of Contractor
               Intergovernmental Personnel and
               Change of Station Assignments
IG-0763        The Department's Efforts to         03-30-07      $706,500
               Implement Common Information
               Technology Services at Headquarters
OAS-M-07-01    Management Controls over the       01-18-07    $5,000,000
               Department of Energy's
               Superconductivity Partnerships
OAS-M-07-02    Management Controls over the        02-20-07
               National Nuclear Security
               Administration's Ability to Maintain
               Capability of the TA-18 Mission
OAS-L-07-01    Bonneville Power Administration's 10-12-06
               Conservation and Renewables
               Discount and Conservation Rate
               Credit Programs
OAS-L-07-02    Emergency Response Training at     10-18-06
               Lawrence Livermore National
               Laboratory
OAS-L-07-03    Department of Energy's Carbon      11-28-06
               Sequestration Program
OAS-L-07-04    Inquiry to the Hotline Complaint 12-18-06
               on Possible Design Mistakes and
               Cost Overruns of the Linac
               Coherent Light Source Project at
               Stanford Linear Accelerator Center
OAS-L-07-05    The Department of Energy's         01-26-07
               Implementation of Revised
               OMB Circular No. A-123
OAS-L-07-06*   Office of Science's                01-31-07
               Implementation of the Federal
               Information Security
               Management Act


                                            28
OFFICE OF INSPECTOR GENERAL                         U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Report                                                Date of               Questioned
Number                           Title                 Issue      Savings     Costs
OAS-L-07-07        Device Assembly Facility           02-21-07
                   Utilization
OAS-L-07-08        Design of the Engineered           02-27-07
                   Barrier System at the Yucca
                   Mountain Site
OAS-L-07-09        Federal Managers' Financial        03-13-07
                   Integrity Act
OAS-C-07-01        Agreed Upon Procedures for         10-19-06
                   Princeton University's Property
                   Management for National
                   Aeronautics and Space Administration
                   Grant No. NNC04GA60G
OAS-V-07-01        Assessment of Changes to the     10-20-06
                   Internal Control Structure and
                   Their Impact on the Allowability
                   of Costs Claimed by and
                   Reimbursed to BWXT Y-12, LLC
                   under Department of Energy Contract
                   No. DE-AC05-00OR22800
OAS-V-07-02        Assessment of Changes to the        10-25-06
                   Internal Control Structure and
                   Their Impact on the Allowability of
                   Costs Claimed by and Reimbursed to
                   Battelle Energy Alliance, LLC under
                   Department of Energy Contract
                   No. DE-AC07-05ID14517
OAS-V-07-03        Assessment of Changes to the        12-07-06
                   Internal Control Structure and
                   Their Impact on the Allowability of
                   Costs Claimed by and Reimbursed to
                   BWXT Pantex, LLC under
                   Department of Energy Contract
                   No. DE-AC04-00AL66620




                                                 29
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                  SEMIANNUAL REPORT TO CONGRESS




Report                                            Date of                    Questioned
Number                     Title                   Issue        Savings        Costs
OAS-V-07-04    Assessment of Changes to the     01-04-07
               Internal Control Structure and
               Their Impact on the Allowability
               of Costs Claimed by and
               Reimbursed to Honeywell Federal
               Manufacturing & Technologies, LLC
               under Department of Energy Contract
               No. DE-AC04-01AL66850
OAS-V-07-05    Assessment of Changes to the        01-16-07   $2,836,181
               Internal Control Structure and
               Their Impact on the Allowability of
               Costs Claimed by and Reimbursed
               to Sandia Corporation under
               Department of Energy Contract
               No. DE-AC04-94AL85000
OAS-V-07-06    Assessment of Changes to the      02-21-07        $300,000
               Internal Control Structure and
               Their Impact on the Allowability
               of Costs Claimed by and Reimbursed
               to Lawrence Berkeley National
               Laboratory under Department of
               Energy Contract No.
               DE-AC03-76SF00098
OAS-V-07-07    Assessment of Changes to the       03-06-07       $100,000
               Internal Control Structure and
               Their Impact on the Allowability
               of Costs Claimed by and
               Reimbursed to Argonne National
               Laboratory under Department of
               Energy Contract
               No. W-31-109-ENG-38
OAS-FS-07-01   Federal Energy Regulatory          11-07-06
               Commission's Fiscal Year 2006
               Financial Statement Audit
OAS-FS-07-02   The Department of Energy's         11-13-06
               Fiscal Year 2006 Consolidated
               Balance Sheet




                                          30
OFFICE OF INSPECTOR GENERAL                         U . S . D E PA RT M E N T O F E N E R G Y
                            SEMIANNUAL REPORT TO CONGRESS




Report                                                   Date of              Questioned
Number                                   Title            Issue     Savings     Costs
OAS-FS-07-03             Information Technology          12-21-06
                         Management Letter on the
                         Audit of the Department of
                         Energy's Consolidated Balance
                         Sheet for Fiscal Year 2006
OAS-FS-07-04             Management Letter on the        01-04-07
                         Audit of the Department of
                         Energy's Consolidated Balance
                         Sheet for Fiscal Year 2006
OAS-SR-07-01* Selected Controls over Classified          11-27-06
              Information at the Los Alamos
              National Laboratory
*Report contains Official Use Only information.




                                                   31
U . S . D E PA RT M E N T O F E N E R G Y                  OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Reports Issued – October 1, 2006 to March 31, 2007*

Report Number                 Title                                                         Date of Issue
IG-0741                       Concerns With Security Barriers at the Y-12                        10-10-06
                              National Security Complex
IG-0742                       Protective Force Property Management at Lawrence                   10-11-06
                              Livermore National Laboratory
INS-L-07-01                   Drug Testing for Security Positions at DOE’s                       10-18-06
                              Portsmouth and Paducah Sites
INS-L-07-02                   Concerns with the Storage and Transportation of                    10-20-06
                              Depleted Uranium Hexafluoride Cylinders at the
                              East Tennessee Technology Park
INS-L-07-03                   Alleged Waste of Funds Involving Excess Property at                11-15-06
                              Rocky Flats
IG-0745                       Material Control and Accountability at Lawrence                    11-15-06
                              Livermore National Laboratory
IG-0746                       Work Packages for Site Support Services at                         11-29-06
                              Los Alamos National Laboratory
INS-L-07-04                   Quality Assurance and Inventory Control Issues at                  01-08-07
                              Los Alamos National Laboratory
IG-0754                       Sandia National Laboratory-California Procurement                  01-18-07
                              Card Program
IG-0755                       Review of the Department of Energy's Canine                        01-23-07
                              Program at Selected Sites
INS-L-07-05                   Alleged Loss or Theft of Personally Identifiable                   02-02-07
                              Information at Pantex
IG-0756                       Chemical Safety Protocols at the Pantex Plant                      02-02-07
INS-L-07-06                   Lawrence Livermore National Laboratory Protective                  02-16-07
                              Force Issues
IG-0757                       Excessing of Computers Used for Unclassified Controlled            02-16-07
                              Information at the Idaho National Laboratory
IG-0759                       Excessing of Computers Used for Unclassified                       03-05-07
                              Controlled Information at Lawrence Livermore
                              National Laboratory
IG-0762                       Internal Controls Over Computer Property at the                    03-28-07
                              Department’s Counterintelligence Directorate
*Does not include non-public reports


                                                       32
OFFICE OF INSPECTOR GENERAL                                        U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




                        Statistical Information

Audit Report Statistics – October 1, 2006 to March 31, 2007

The following table shows the total number of audit reports and the total dollar value of the
recommendations that funds be put to better use by management:

                                            Total            One Time                 Recurring              Total
                                           Number             Savings                  Savings              Savings
Those issued before the                          7       $1,198,131,073               $6,000,000          $1,204,131,073
reporting period for which
no management decision
has been made:*
Those issued during the                         35            $57,297,500                         $0        $57,297,500
reporting period:
Those for which a             18                            $477,474,900                          $0       $477,474,900
management decision was made
during the reporting period:*
Agreed to by management:                                    $267,077,400                          $0       $267,077,400
Not agreed to by management:                                    $7,400,000                        $0         $7,400,000
Those for which a                              19                           $0                    $0                  $0
management decision is
not required:
Those for which no                               5          $980,951,173              $6,000,000           $986,951,173
management decision has
been made at the end of the
reporting period:*
*The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                              33
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Audit Report Statistics – October 1, 2006 to March 31, 2007

The following table shows the total number of audit reports and the total dollar value of
questioned and unsupported costs.

                                                                      Total Questioned                    Unsupported
                                                                     Number   Costs                          Costs
Those issued before the reporting period                                  0          $5,310,071               $0
for which no management decision
has been made:*
Those issued during the reporting period:                                 2          $3,136,181               $0
Those for which a management decision was                                 2          $4,063,534               $0
made during the reporting period:*
Value of disallowed costs:                                                               $98,170              $0
Value of costs not disallowed:                                                         $829,183               $0
Those for which a management decision                                     0                      $0           $0
is not required:
Those for which no management decision                                    0          $7,518,899               $0
has been made at the end of the
reporting period:*
*The figures for dollar items include sums for which management decisions on the savings were deferred.




Reports Lacking Management Decision
The Department has a system in place to track audit reports and management decisions.
Its purpose is to ensure that recommendations and corrective actions indicated by audit
agencies and agreed to by management are addressed as efficiently and expeditiously as
possible. Listed below is the only audit report over six months old that was issued before
the beginning of the reporting period for which no management decision had been made by
the end of the reporting period. The reason a management decision had not been made and
the estimated date for achieving a management decision is described below.

    ■   Management Audit
        IG-0669: Use and Management of Mobile Communications Services,
        December 14, 2004 – The management decision in response to this report requires
        additional action. The nature of the recommendations, which spans the Department’s
        major programs, field sites, and facility contractors, requires more extensive work with the
        affected entities to insure that the Inspector General's recommendations are implemented


                                                              34
OFFICE OF INSPECTOR GENERAL                                                   U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




     and corrective actions are undertaken in a manner that is consistent with Department and
     organizational missions and objectives, as redefined by the implementation of new policies
     and procedures applicable to the corporate-wide delivery of information technology support
     services. These recommendations and corrective actions should be implemented by
     December 31, 2007.




Prior Significant Recommendations Not Implemented
As of March 2007, closure actions on recommendations in 43 OIG reports had not been
fully implemented within 12 months from the date of report issuance. The OIG is
committed to working with management to expeditiously address the management decision
and corrective action process, recognizing that certain initiatives will require long-term,
sustained, and concerted efforts. The Department has undertaken a series of initiatives to
strengthen its process for addressing recommendations in OIG reports and closed 176
recommendations in the last 6 months. Management updates the Departmental Audit
Report Tracking System on a quarterly basis, most recently in March 2007. Information on
the status of any report recommendation can be obtained through the OIG’s Office of
Audit Services and Office of Inspections and Special Inquiries.




                                               35
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Statistics – October 1, 2006 to March 31, 2007

Inspections/Special Inquiries open at the start of this reporting period                                                   107
Inspections/Special Inquiries opened during this reporting period                                                               17
Inspections/Special Inquiries closed during this reporting period                                                               20
Inspections open at the end of this reporting period                                                                       104
Reports issued (includes non-public reports)                                                                                    18
Report Recommendations*
          Issued this reporting period                                                                                          49
          Accepted by management this reporting period                                                                          46
          Implemented by management this reporting period                                                                       23
Complaints referred to Department management/others                                                                             90
          Referrals to Department management requesting a response for OIG evaluation                                           45
*Includes non-public report recommendations




Hotline Statistics – October 1, 2006 to March 31, 2007

Hotline calls, emails, letters, and other complaints                                                                      581*
Hotline calls, emails, letters, and other complaints predicated                                                            180
Unresolved Hotline predications from previous reporting period                                                                  10
          Total Hotline predications                                                                                       190
Hotline predications transferred to the Management Referral System                                                         107
Hotline predications closed based upon preliminary OIG activity                                                                 68
Hotline predications pending disposition                                                                                        15
          Total predications processed                                                                                     190
*The figure includes complaints outside the purview of the Office of Inspector General. The complainants were referred to the
appropriate Federal, State, local, or private organization for assistance, if applicable.




                                                              36
OFFICE OF INSPECTOR GENERAL                                                  U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




Investigative Statistics – October 1, 2006 to March 31, 2007

Investigations open at the start of this reporting period                                                                    273
Investigations opened during this reporting period                                                                            56
Investigations closed during this reporting period                                                                            67
Investigations open at the end of this reporting period                                                                      262
Qui Tam investigations opened                                                                                                      1
         Total open Qui Tam investigations as of 3/31/07                                                                      20
Multi-agency task force investigations opened                                                                                 20
         Total open multi-agency task force investigations as of 3/31/07                                                     125
Investigative reports to prosecutors and Department management                                                                22
Recommendations to management for positive change and other actions                                                           55
Administrative discipline and other management actions                                                                        60
Suspensions/Debarments                                                                                                        19
Investigations referred for prosecution                                                                                       19
          Accepted*                                                                                                           18
          Indictments                                                                                                         21
          Criminal convictions                                                                                                28
          Pretrial diversions                                                                                                      1
          Civil actions                                                                                                            1
Fines, settlements, recoveries**                                                                             $3,230,616.55
*Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
**Some of the money collected was the result of task force investigations.




                                                               37
U . S . D E PA RT M E N T O F E N E R G Y                                     OFFICE OF INSPECTOR GENERAL
                           SEMIANNUAL REPORT TO CONGRESS




Feedback Sheet
The contents of the April 2007 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any
suggestions for making the report more responsive, please complete this feedback sheet
and return it to:

          United States Department of Energy
          Office of Inspector General (IG-1)
          Washington, D.C. 20585

          ATTN: Fatima Pashaei



Name: __________________________________________________________________


Daytime Telephone Number: ________________________________________________


Comments/Suggestions/Feedback:
(Please attach additional sheets if needed.)




                                               38
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
